Inlprovel11ents Needed in Vendor Repair and Return Process

               Final Audit Report #104-2008

                      Marcil 23,2010




                  Audit Report Issued By:

   NATIONAL RAILROAD PASSENGER CORPORATION
                    AMTRAI(
         OFFICE OF INSPECTOR GENERAL
                10 G STREET, N.E.
             WASHINGTON, DC 20002
                                           NATIONAL RAILROAD PASSENGER CORPOnATION
                                                    10 G St(~el NE, 3\v300, Washington, DC 20002
                                                                TeI202·906·45GO Fax 202-906-4564




                                                                      Gary E. Glowacki, Deputy Inspector
       Date      March 23, 20 to                         From
                                                                      General, Audits
                 William Maguire,
         To                                      Department           Office of Inspector General - Audits
                 Chief Logistics Officer
                                                      Subject         I nlpl'OVCments Needed ill Vendor
                                                                      Repair and Retul'n Process, Final
                                                                      Audit Repol't #104-2008
                                                             cc


    Enclosed is our Final Report) on the Vendor Repair and Return (R&R) Process. OllI' objectives
    were to deterJuine whether open purchase orders (POs) for R&R parts are closed on a titnely
    basis and if intell1al controls for the R&R process including warranty repairs are effective. The
    results of Ollr audit were discllssed ,vith JOIUl Maliin, Deputy Chief Logistics Officer,
    Procurelnent, David Herendeen, Deputy Chief Logistics Officer, Materials Managelnent and Lee
    SlnaLi, Director - Procurelnent and Materials Managell1ent.

    We appreciate the courtesies and cooperation of your staff during this audit. If you have any
    questions, I can be reached by telephone at 202-906~45GO (ATS 777-4560) 01' bye-mail at
    GlowacG@amtrakcom.


    /)
,l( GLe&.- 1~\ I(<?/?~
                   \/- ,
D   Gary E. Glowacki
    Deputy Inspector General- Audits




    Attachment


    Distribution
    John Mmtin, Deputy Chief Logistics Officer, Procurement
    David Herendeen, Deputy Chief Logistics Officer, Materials Mallagetllent
    Lee Stllart, Director - PrOClll'Clnent and Materials Management
                       Illlpl'OVCmellts Needed in Vendor Repair and Return Process
                                             Report # 104-2008




Anltrak's Vendor Repair and Rehll'n (R&R) process includes the replenishment) dish'ib\ltiOll and
disposal of train equiplnent parts/components (paris). One of Amtrak's major initiatives is to
maintain its fleet and infrastlllctUl'e in a state of good repair of which the vendor R&R process is an
,,'          -, . - .    essential part. Continuolls lllonitoring and follow-up 011 open R&R purchase
                         orders (POs) with vendors is essential to maintain the AIHtrak fleet and to
    WI-IY JJlE DID
                         ensure on-time performance and reliability. The Chief Logistics Officer in
    THIS A VDIT
                         Procurement lnanages the Vendor R&R process.
  TIlls audit was
                          The audit objectives were to determine whether inactive (open) purchase
  conducted to
                          orders for R&R pa11s are closed 011 a timely basis and, if internal controls for
  determine
                          the R&R processes including warranty repairs are effective. Amtrak's poJicy
  whether:                on the R&R process fol' parts is "Vendor Repair and Reh1l11S" (PII 11.51).
                          The policy defines the purpose, functional responsibilities and procurement
  o   Open                activities of the R&R process. OUl' scope included R&R expenditures of
      purchase            $7.68 million for FY 2008.
      orders are
      closed on a                                     Our audit disclosed that there were 490 open POs
                            Vel/dol' RepaiJ' fllld
      tinlely basis;                                  for R&R parts for FY 2008 that were past the
                            Rellll''' policies alld
      and                   procedures lIeed to be    promised delivery date. This occlIned because
                            i/npl'overi.              PrOCllrement and Material management did not
  o   Inten1al
                                                      have guidelines specifying the responsibility for
      Controls for                                 . tracking open R&R purchase orders or for
      the Repair          following up with vendors on the status of overdue patt repairs. Alllh'ak's
      and Rehlrn          exposure for not tracking open R&R purchase orders lllay lead to a deJay in
      process             the performance of criticallnailltellance work and the maintenance of higher
      incillding          inventolY levels.
      warranty
      repairs are         Our audit also found contracting agents do not consistently cornpare the cost
      effective.          of repairing a part to the price of purchasing a new part. Procurement
                          personnel follow a procedure, although 1l0t written in any policy or guideline,
that if the cost of repairing a part is less than 70 percent of the price ofa new part, the part should be
repaired. We cOlnpal'ed the new price of 15 sample items with the cost for repairing items and
detel111ined the cost of repair for 3 of the 15 items exceeded the 70 percent threshold. We could not
make a similar comparison for 15 other sample items because the price of the new part had never
been entered into the autol11ated procurement systenl. If the contracting agents do not perform and
doclllnent the appropriate analysis regarding purchasing or repairing vendor R&R parts, Amtrak is at
risk of not making cost effective decisions which could lead to higher 111aintenance costs.
                                          Vendor Repair and Retul'1l Process Audit
                                                          Report # 104 .. 2008




BACI(GROUND.................................................................................................................................. 1


RESULTS OF AUDIT, RECOMIVIENDATIONS, AND MANAGEMENT'S RESPONSE

           Finding 1: Open PO Follo\V~Up Procedures Need To Be El1hanced ................................. ~

           Finding 2: Contracting Agents' Decisions to Fix Defective Parts Need To Be
                      Fonnally Docl11ncnted and Consistently Applied ............................................ ,J


onsERvATION .......... ........................................................................... --............................................1




EXHIBIT A-                          Objectives, Scope and Methoc1ology........................................................... .Q

EXHIBITB-                           New Part Pricing Available.......................................................................... 1

EXHIllITC-                          New Part Pricing Not Available ................................................................. J!

APPENDIX -                          Managelllellt Respollse" ............................................................................... .2




                                                                      ii
                      Illl})l'OVeltlcnts Needed in Vendo}' Repair and Returll Process
                                             Repol't # 104-2008




The R&R process includes the replenislnnent, distribution and disposal of pads l , One of
funtl'ak's major initiatives is to Inaintain its fleet and infl'astnlCture in a state of good repair. The
R&R process is an essential part of this effort. Continuous 1110nitoring and follo\v~\lp on open
R&R purchase orders with vendors is essential to maintain the Alntrak fleet and to ensure on~
time perfonnance and reliability. Total R&R expenditures in 2008 were $7,68 Ini11ion.

The R&R process for palts is defined in Alntl'ak Policy P/I 11.51 - "Vendor Repair and
Returns". The poHcy defines the purpose, functional responsibilities and procurelnent activities
of the R&R process for parts. The R&R process begins \vith a tnechanic identifying and
removing a defective part during preventative and scheduled maintenance of 10COlllotives anet
train cars, The Inechanic sends the defective part to the Material Control Jocation OIl-site and
requests a refurbished or new part to replace the defective part. The Illechanic utilizes Alntrak's
Work Managclnellt System (WMS) to place orders and receive parts from Material Control.
After the luechanic places the order, WMS interfaces with Atntrak autOlnated Inaterial
pl'OCUrell1ent systenl (AAMPS2) to generate a pick ticket in Material Control. Material Control
personnel and the contracting agents 3 use the AAMPS to request, order, receive and pay for
parts. Material Control personnel use AAMPS to detennine if the part is to be repaired in-house,
by an outside vendor, or covered under warranty. This audit includes only parts repaired by
outside vendors and does not include parts repaired in~hollse,




I The Mechan.ical department is responsible for locomotive and trai.n car routine and preventative maintenance as
well AS scheduled equipment overhauls.
2 AAMPS snpports all Inventory functions. This includes requisitions, purchase oroers, receipts, and payments.
3 The Contracting Agent (CA) is un duly appointed individual who is subordinate to the COllh'actillg Officer".
Material Control creates a Materials Requisition for the pmt and sends it to the CA. The CA contacts the vendor to
obtain a qllole and shipment information.
                   hnpl'OVeulCnts Needed ill Vendor Repair and Rehn'Jl Process
                                        Repo)'t ff 104 .. 2008




Finding 1:     Open Repair POs to Vendors

We found R&R purchase orders \vere not closed in a tilnely InalUlCr. We obtained a report of
R&R purchase orders for FY 2008 that were still open as of March 20, 2009. The breakdown of
POs according to days past the prOlnised deJivel'y date is shown in the table below:

             Days Past Prolllised Delivery Date            NUlllbe)' of Open FY 2008
                                                           POs as of IVlal'ch 20, 2009
            0-200 Days                                                  117
            201-400 Days                                               282
            Over 400 Days                                                91
            Total                                                      490

We judgnwntally selected a satnple of 30 open R&R purchase orders to detennine whether the
POs were still valid and whethet' PrOClU'elnent and Materiailnanagelnent had followed up with
vendors on the status of the overdue parts. All 30 open POs we sampled were behveen 200 and
600 days past due fr0111 the promised delivery date.

One of the itelns satnpled was a 1l1ain transfonner for a IOC0111otive and on the date of our test, it
was 347 days past due. The transfonner was removed n'Olll the 10cOlnotive in October 2007 and
the PO had a prOlnised delivery date of March 31, 2008. It was finally received on Novelnber 16,
2009. Another open itelll was a \vater pmnp for an Atnfleet cafe car. The pump was l'eluoved in
DeCelnbel' 2007 and the PO had a prOlnised delivery date of January II, 2008. As of March 20,
2009, it was 434 days past dne.

We requested records of follow up froll1 the Material Control personnel. There was no evidence
of follo\v-np such as AAMPS systenl notes for the past-due parts in our s31nple, The lack of
tracking and followwup occUlTed because guidelines do not contain language specifying the need
or responsibility of tracking open R&R purchase orders or following-up \vith vendors on the
statns of open R&R purchase orders.

Without em effective tracking and follow-up system, AIntrak is at risk of delaying critical
maintenance work and itnpacting AIntrak's ability to 1118intain a state of good repair for its trains
and cars,

ReCOlnlnenda tiolls
We recotnnlCnd the Chief Logistics Officer:
   1) Establish the operational responsibilities to track open POs of R&R transactions,
   2) Revise the policies and procedures to require Material Control persolUlel to track and
       follow-l1P with vendors on the status ofR&R part POs.



                                               P~gc2
                         I1111>l'OVCIucnts Needed in Vendor Repair   ~ncl   Returll Process
                                                Repol't # 104 2008
                                                             a




Managelnell t Response

Alntrak responded on DeCelllbel' 9, 2009 and cOllcUlTed with Ollt' recOlnmendatiolls. Alntl'ak
stated that, cnrrently, reports of open repair POs are nm and orders are being reviewed and
expedited by Material Contrors expediting group. Alntrak also indicated that a fonnal process
will be established within 90 days to track open repair orders to ensure repaired material is
returned frotn the supplier and the POs closed within a reasonable timeframe.


Finding 2:       Contracting Agents' Decision to Fix Defective Parts

Procurel11ent persolUlel follow a procedure although not written in any policy or guideline that if
the cost of repairing a part is less than 70 percent of the price of a ne\v part, the part should be
repaired. We judgtnentally selected a sample of 30 R&R repair transactions to cOlnpare the price
of new to the cost of repair to determine if the decision to repair the part or purchase a ne\v part
was done in accordance \vith existing procedure. We fonnd contracting agents did not
consistently cOlnpare the cost of repairing a part to the price of purchasing a new part.

We obtained a report for FY 2008 consisting of 3,315 R&R repair transactions and selected a
salnple of 30 itelns. Material Control was able to provide us the price of the new part for 15 of
the 30 items. For the 15, we cOlnpared the price of the new part \vith the cost to repair the itenl.
As shown in Exhibit B, for 12 of 15 transactions tested~ the cost of repairing the R&R part
ranged froln 33 to 60 percent and cOlnplied with the existing procedure. We noted 3 instances
where the cost of repair exceeded 70 percent of the price of a new part. For example, a
Rheostatic Chopper Water Plate was repaired at a cost of $27,245 when the cost of a new part
was $31,644. In this case the cost of repair was 86 percent of the price of a new part.
Additionally, a Cycle Skipper Panel for a locomotive \vas repaired at a cost of $5,118 ,vhen the
cost of a new part was $6,995 (repair cost 73 percent of the price of ne\v part).

We contacted the Director of PrOCtlrelnent and Material Managelnent and Material Control
personnel to obtain the price of new parts for the remaining 15 transactions listed in Exhibit C.
However, the pricing infonnation was not available in AAMPS because these parts had never
been purchased as ne\v by Atntrak. Consequently, for 3 of the sampled itelHs and 15 of the itenlS
where a new price \vas not available (total of 18 of the 30) the contracting agent did not cOll1ply
with the current procedure. In sumnHH'Y, Amtrak had no assurance that its decision to repair the
18 items was cost effective and in the best interest of the cOInpany.


Reco nlnlell cia tiOll

The Chief Logistics Officer should develop written procedures to ensure the contracting agents'
decisions to repair a defective palt is cost effective and ill the interest of the company.




                                                    Page 3
Mallagenlent Response

Alntrak resllonded 011 Decenlber 9, 2009 and concurred with our rec01l11nendation. Atntrak
stated that orders where it has been detel'1nined the material is beyond ecollomicail'epair are
being addressed by the contracting agent responsible for the PO. Fonnal procedures stating
the process for detennining when material should be scrapped will be developed within 90
clays.

Auditor's COllnneut

Managelnenfs current and planned actions are responsive to all of Ollr recoll1mendations.
Ho\vever, we will consider the recollllllenclations open until fonnal processes are developed and
ilnplelnented for both Finding A and B.




As part of our audit, we selected a sample of 30 denied warranty coded R&R transactions in
order to detennine if internal controls for \varranty repairs were effective. We found that 25 of
the 30 denied warranty transactions were dOClllnented in AAMPS. Documentation was not fOllnd
for the other five transactions we smnpled. However, Atntrak did have other controls slIch as
requiring the contracting agent to obtain teclulical expertise frolH other deparhnents to determine
the validity of the denied warranty clainl.

Alntrak, in it's reply to Ollr draft report, stated that the contracting agent is not authorized to
accept a warranty denial without the approval of Engineedng, Standards & COlnpliance, and
Mechanical. When a \varranty c1aitn is denied, the contracting agent advises Ellgineerhlg,
Standards & COlnpliance and Mechanical to obtahl their technical expe11ise to detennine if the
denial is valid. In the event the Alntrak depm11nents deenl the warranty is valid, tlIe contracting
agent acts as a liaison between the supplier and the Alnlrak department to resolve the issues. The
process for warranty denials will be revisited within 90 days.

Based on l11anagelllent's response, we revised OUL' final report and eli1ninated the
recollllnendation for this observation.


Audit Staff:

George Atuobi
Joseph ZallHllarella
Alan Klein




                                              PAge4
Objective and Scope
The audit objectives are to detennine if open POs are cLosed on a timely basis and internal
controls for tlle R&R process including warranty repairs are effective.

The scope of the audit enconlpasses Alntrak's R&R activities during FY 2008. The audit includes
parts repaired only by outside vendors and did not include patis repaired in-house. As part of the
audit, the Office of Inspector General (OIG) auditors visited eight locations that accounted for
$7.39 of the $7.68 million of Alntrak's R&R expenditure during FY 2008.

IVlethodology
The audit included the following Inethods for gathering, analyzing and presenting data associated
with the audit steps.

    o   Interviewing key persolUlel to cOlnpile information needed to identify potential risks
        and issues of the R&R activities and to conduct the audit.
    o   Reviewing R&R transactionl'eports and other related docmnentation.
    o   DOclllnenting processes and procedures related to R&R and closing of reJated open
        POs.
    o   Conducting a risk analysis and preparing controls matrix to identify risk levels based
        on survey work, prelitninary analysis of background/training Inaterial and infonnation
        gathered fro111 sources snch as entrance conference and preliminary interviews.
    o   Using judgtnental salllpling based on number of transactions generated by location to
        select R&R transactions for process eXflillination.
    o   Testing R&R transactions to ensnre R&R procedures are effective and open POs are
        closed on a titnely basis.

\Ve utilized certain data and reports generated by the AAMPS systelll. While \ve pel'fonned
litnited tests to assess the reliability of the data generated through the systelll, Ollr audit scope did
not include testing of the general and appJication controls associated with the AA1Y1PS systen1.

We conducted the audit in accordance with the GovenlJnent Auditing Standards, issued by tile
COlnptl'oller General of the United States. Those standards reqnire we plan and perfol'1n the audit
to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.




                                                 Pnge 5
                             t; ' .~
                                       In
                                            IJ        (" , HUH j(j    It Ii d i   ,J,
                                                                                        I.   .,     ~   Q
                                                                                                            .


                                                                                                                0/0 Cost of Repair
     Amtrnlc                 Part                  Entl'y                  Price of                Cost of
#                                                             Qmmfity                                           ComlH'l'e to Price
     Location         Descrip f iOlls              Date                    New Part                 Repair
                                                                                                                    of New Part
1      090      Module Assy, EC04B2, 06124/2008                  1        $25,384.98              $14,706.83            59%
                F/HHP Loco
2      100      iBlower, Vacuum      06/0412008                  1         $2,060.00              $1,568.98           76%
                Pnmp, F/VacHum
                \Vaste
3      100      h'oilct Assy,        05/1612008                  1         $3,094.46              $1,834.00           59%
                Monogram,
                ):<'Niewliner Mod
4      120      Diaphragm Assy,      05/19/2008                  1         $5,542.33              $3,369.00           60%
                Modular F/AMF, S/L
                (W)
5      130      IAntelUH1,   SCalUlCl'           05109/2008      1         $5,076.00              $2,459.00           48%
                to/ON High Speed
                trrains
6      130      tTY Box, Part of                 04123/2008      1         55,687.00              $2,459.00           43%
                LACSES" Advanced
                Civil
7      130      trowel' Supply, P/CAB            08/19/2008      1         $2,601.00              $1,040.40           40%
                Signal AEM-7 (20P3)
8      130      lAir Drier, 994-100              02/1112008      1         $4,960.00              $2,623.30           52%
                tF/AEM-7 Loco Air
9      025      lPanel, Cycle Skipper,           12/1912007      I         $6.995.00              $5,118.00           73%
                lP42dc, Amd-l 03 Loc
10     040      !Air Conditioner, 12             09/0312008      I         $28,097.39             $9,386.59           33%
                TOllS F/SI Li (W)

11     040      IA ir Conditioner, 12            02/0512008      1        $28,097.39              $ 12,242.66         43%
                ~\ons   FI Superliner
12     100      Module Assy, Iko~                07124/2008      1         $46,482.21             $16A37.04           35%
                ~h2, FI Hhp Loco
13     130      !Return Air Module, FI           05/24/2008      I         $1,000.00               $368.00            37%
                IAmf I & Ii Reman
14     130      truleostatic Chopper,            06/19/2008      1        $31,644.00              $27,244.73          86%
                ~Valer Plate, Aem-7ac
15     130      tBa ttery Chnrger, 18kw 07129/2008               1        $55,000.00              $18,600.00          34%
                60hz, F/Aem-7ac




                                                              Page6
                     I, .' n
                                ...
                                 I            ."   Ir   I He   r    .t.   0 ,
                                                                   H rlUll~
                                                                                I , i hI
                                                                                            ~      ~   0   .

         Amtrak                       P~l't                        Entry                          Pl'ice of     Cost of
    #                                                                           QU;lutity
         Location                 Descrfptlons                     Date                          New PEt)'t     RepHil'
    1      040      Condenser Unit, Compressor, Camp.          02/07/2008           1           Not available   $5,479.00
                    (\V)
    2      040      HVAC Ullit, PI P~42 Loco (R&R @            0712912008           I           Not available   $10,334.82
                    B,G.)
    3      040       Compressol', Air WIMOtOf, Ge Dash         07124/2008           1           Not available   $25,867.48
                    8-32bwh
    4      061      Main Alternator, PI Ge P-32cd              05/2912008           1           Not available   $22,517.44
                    Locomotive
    5      061      'WAste Tank Assy, FIHorizon Car,           05/15/2008           1           Not available   $15,875,21
                    Monognun
    6      085       Cab Signal Mechanism - Complete,          0212712008           1           Not availnble    $7,500.00
                     Group 2
    7      085       Cab Sigllnl 'Mechanism Complete,          07/3112008           1           Not available    $6,995.00
                     Group 5
    8      090       Comp./Cond. Unit, \V /Double Fan          06/0412008           1           Not availab1e    $8,825.00
                     AmfI (W)
    9      090      Module, Traction                           05/28/2008           I           Not available   $32,600.61

    10     100      Condenser Unit                             02/0712008           1           Not available    S7,270.00
    11     120      Comp.lCond. Unit, \V ISinglc               05128/2008           1           Not available    $5,183.20
                    Fall,A mf I(W)
    12     120      Compressor, A/C Comp,FI Amf-               02/0912008          18           Not available   $28,212.48
                    Hep-Viewlier
    13     130      Compressor, AlC Comp.PI Amf-               01/0712008           I           Not available    $1,536.63
                    Hep-Viewlier
    14     130      Module, Pmcf - \Vater Plate, FI            0812612008           1           Not avrdlable   $27,571.92
                    Aem-7 Ac
    15     130      Module, Traction Inverter, PI Aem-7        03/21/2008           1           Not available   S24,139.00
                    Ac




I
                                                         Page?
                  Appendix - Management Response

                            'NAT{O~AL ~AlkRbAt) p.Ag~NGeR CORPORAi,bN
                                                  at) 'SCreet-8latfon, 6111 Floor\SouUlea'st, Phlladefp'~a, PA 191M
                                                                                                            ;




Me·m·o
   11i1le                                                                     ·Fr()lu
                                                                                        UJ/t~·:·
                                                                                         ·wl~l" M
                                                                                                  .....--
                                                                                                     gl1.n'e
                                                                                                       J
     To                                                                  JJepnUntclit Pl'()Om'em \~   Matorfafs lVJgmt
                                                                             Subjcet V'-eUd'Ol n~pHh' & Retm'n An<flt
                                                                                                 l


                                                                                  co Je(f:MR1'tln) Depufy Logistics
                                                                                        ·~rfi.c6.c - Pl'o~\1l'emont
                                                                                        Dflvld I-Ttwende'oH) Deputy hOgtStlcs·
                                                                                        'O'ff'icer Ma101ila:ls: Mgmt
                                                                                                     1-.


                                                                                        Loe.Srlunt) Diroctol' "-'Pl'oeul'enrcnl
                                                                                         ffll({ MatcwJa.1g MflllngeUlenT:




            Tllis is, in "espOlfs~to ,yOUl'11\'o1np d~te.d NbVefnlrel' 1.6~ ~009 nddl'6~si1\g the t\udit of
            Veneto!' RepRh' flnll Itetnrlt(R&R) Pl'OCessa

            Finding t: Op0Ji Plll'chasr:; Oi'lI~l'8

            Rccommell(faUofl:

            Tne Mntel'ial COlih'oll)ei'SOI11\el Sltoilld cOJlS"ishmtly tt'ft'Ckfll\~ foftow·til' \vith Ve)ltfol'S
            on the stftlll~ of..~v61'duo componen.t rel.)'llh'8;;to ensure. that i'elntit.issn6s Al'e-identifieo
            ~mi l'osoIve'il. on .g timely basis. We'tCcouullerrd t(\ilt tIre Clt1\)~Logistlcs .Off.tC'elt~ftoufcl,
            estAblish the (1)el'atr(b'aI1'6sponslbUitr~s fo tl'ilck open putchasu ol'd~l'trofVol\dol' R&R
            jransR~tions 'and Itl<s!uda supecvlsory'Ovel'sig,ht to OJlSlU'e oomp1iaHce:"

            Management RespOl1so::
            Cot\C(U', Cli:frellUYl fej:lm'ts 'Or(1)e11 '1'01101\' pm'clurse.Gl'del's 1li:d l nn all,1 otllet's' ate. behlg,
                                                                                             f



       I    revIowed rnnf eX~ledne'd by Mftretiri-l COJltt~ol's e."{pedmn~R,'o\l}1J A fOl'mnl pl'ocess
            wj 11 be e~h,bJlsned \VitlHu90 day,s...to track. Op'e,ll i'Oi,,,llt ol"'de1'8 to :el1S\l\'e.. repah'cd jl'latel~lal is
            l'ehklled front ntb,slti)pl1ei: al~d tt.i~rptlfclntso O,l'ael' olos~d \vIthh\ ~a.l'cA'S'oilahle thn:~traH(t), David.
            Heren:il'cou, Deputy loglstio'S 0:ftioo1' .... Matel'hils N(gll)t
            FindIng 2! Btty;e)".s De~iS1ofl.t6· Fht'BefcdlWe I'ntts
            Re'cOln.luell~lftd()n:

            Tho CtiicfLoglstics amC~l' should develop n wdtten j>l'o'cedut'o,to enstll'u.buyel'st
            tte-oi-slblls tb It}mtl' Rd-ofec1ivo'l1lil't Ua·ollse(l'o\) the o(:)~t{)fr6p'Rl.l'lH'g a part cc.1ll)~al'elf
            to·tTl6.price .ofnew Is lass 'thHh 70%. III f\ddltioltJ~nn~iHgement sho\\lcl e.stnbtisl\·u
            SUP'6\'VJsOty I'()view P\'ot!~S' to eliSUl'O aotnpUnnce W)th'ffre l.mlc·edufGS,. T.he.'deeislon
            meUfodofbSY should Db pel'ioetionJ Jy eValUl.lfdo :to ensU)'o tltat'.fi woidd bG cost- effi!otive
            to fix the PEHt.




                                                   PageS
Management Rosponse:

Canout', Orders whore it has bean determined that the mnterlal is beyond economioal
l'epnll' at'e being add.l'eSsed by tlte contraoting Rgent responsible fOl' the l)l1l'ohase ol'del'.
F01'tnal pl'ocedut'es stating fha pl'ocess for detel'mitlh1g when Jnntel'ial should be scrapped wHJ
be developed within 90 dnys. Lee Smal't) Dil'eotol· . . . Pl'oolu:ement and Matel'laIs Mfllulgement

Othel' ObS61'VaHous: Denied WAl'rAnty Claims

RecommeildAtlon:

The ChiefLoglstics Officer ShOllld establisll oontmls to requlrEJ buye)'s to l'evlewaU
l'ejected w(\n'nnty Qlaims Hnd dooument the reason fOl' wfll'l'ftnly rejeotlolllu the PlU'OhftS6
Ol'del' AWlit'd AnalysIs module of AAMPS.

Management ReSl)otlse:
PAl1ially oonClIl'. Tlla cOlltmctlng agent J8110t nuthol'lzed to accept (t WR1'fanty denial without
the approval ofEnginecl'ing, Standards & CompHunc() and Meohanlcal. When ft wal'ranty
olalm la denied, the Contraotlng Agent advises Bl1gineering~ Standm'ds & COtnlllhmof) and
Meohanlcal to obtain theh' technictd 6Xll61iise to determIne iftll6 denfalis vnlid. In the event
Ute Amtrak depal'lments deem tho warranty Is valldJ the oonh'aot agent aots as 8 liaison between
the supplier & the Amtrak dopm1ments to 1'6so1v(;) the Issues, The process fOl' warmnty
denials wiII be revisited withIn 90 days. Lee Smat't} Pit'ector - Pl'oolU'ement And MatedAJs
Management




                               Page 9
